HHS/OIG, Audit -"State of Maryland, Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness and Response for Bioterrorism Program Funds,"(A-03-03-00391)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Maryland, Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness and
Response for Bioterrorism Program Funds," (A-03-03-00391)
October 16, 2003
Complete
Text of Report is available in PDF format (292 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Maryland Department of Health and Mental Hygiene (State agency)
properly recorded, summarized and reported bioterrorism preparedness transactions by specific focus area designated in
the cooperative agreements and whether the State agency has established controls and procedures to monitor sub-recipients expenditures
of Centers for Disease Control and Prevention funds.  We found that the State agency generally accounted for Program
funds in accordance with the terms and conditions of the cooperative agreements and applicable departmental regulations
and guidelines.  Specifically, the State agency recorded, summarized and reported transactions by specific focus area.  The
State agency had a system to track and monitor sub-recipient activities; such as, application and award processes, grant
conditions, ongoing fiscal activities, and reporting.  In addition, the State agency was planning to add reviews of
Program funds to current audits performed on sub-recipients.